No:
In the
Supreme Court of the United States
JOHNNY MELENDEZ,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
CERTIFICATE OF FILING
I, Johnny Melendez, do hereby certify under penalty of perjury pursuant to Title
28 U.S.C. § 1746, that on September

2020 I placed my copy of my petition

for a Writ of Certiorari to the United States Supreme Court in the Federal Prison’s
FCI Fort Dix’s - Legal Mail Box for mailing with sufficient First Class Postage.
Accordingly, the Writ of Certiorari was timely mailed to this Court for filing prior
to the filing deadline.

RECEIVED
SEP 1 7 2020

I also served the United States Solicitor General with a copy of the brief as
required per Rule 29 of the Supreme Court rules.
I hereby do certify that pursuant to Penalty
of Perjury Title 28 U.S.C. § 1746 that on
this | Q day of September 2020 I signed
and mailed this document via the Federal
Bureau of Prisons’ Legal Mail System.

Johnny Melendez
Register Number 14119-014
Federal Correctional Institution
P.O. Box 2000
Joint Base Mdl, NJ 08640

